                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM
               -    -




    TO: AIGI       File Number: I90060020                                      Date: 02 March 2002

    Subject: Closeout Memo                                                               Page 1 of 1


         There was no closeout written at the time this case was closed. The following information was
         extracted fiom the file in conformance with standard closeout documents.

         Our office was informed that the subject' was alleged to have committed other illegal acts. The
         subject agreed not apply to NSF until August 1993 and returned $7,390.00 in grant funds. The
         subject will attend a seminar on sexual harassment.

         Accordingly this case is closed.




I
